HHS/OIG-Audit--"Audit of Protections Provided to Foster Care Children
Through the Juvenile Justice System in California, (A-09-99-00057)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Protections Provided to Foster Care Children Through the Juvenile
Justice System in California," (A-09-99-00057)
December 22, 2000
Complete
Text of Report is available in PDF format (3.2 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out significant problems in California's administration
of federally mandated foster care protections provided foster care children
in the State's juvenile justice system. State plan requirements for the case
review system were, in large part, not met. Also, one or both of the required
judicial determinations pertaining to the child's removal from the home were
not always made for these children. These protections were not effective due
to a lack of sufficient oversight by the California Department of Social Services
(CDSS). We recommended that CDSS periodically review a sample of cases to ensure
that the protections are being provided and furnish oversight and technical
assistance to the county probation departments to ensure the proper administration
of Federal foster care requirements. The CDSS concurred with our recommendations.